<html>
<title> - ONE YEAR AFTER WALTER REED: AN INDEPENDENT ASSESSMENT OF THE CARE, SUPPORT, AND DISABILITY EVALUATION FOR WOUNDED SOLDIERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  ONE YEAR AFTER WALTER REED: AN INDEPENDENT ASSESSMENT OF THE CARE, 
        SUPPORT, AND DISABILITY EVALUATION FOR WOUNDED SOLDIERS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

                           Serial No. 110-176

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-228 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
------ ------
                       Dave Turk, Staff Director






























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2008................................     1
Statement of:
    Pendleton, John, Acting Director, Health Care, U.S. 
      Government Accountability Office, accompanied by Daniel 
      Bertoni, Director, Education, Workforce, and Income 
      Security, U.S. Government Accountability Office; Lieutenant 
      General Eric Schoomaker, Surgeon General/Commander U.S. 
      Army Medical Command, accompanied by Brigadier General 
      Reuben Jones, Adjutant General of the Army; Michael L. 
      Dominguez, Principal Deputy Under Secretary of Defense, 
      Personnel and Readiness, U.S. Department of Defense; and 
      Patrick W. Dunne, Rear Admiral, retired, Assistant 
      Secretary for Policy and Planning, U.S. Department of 
      Veterans Affairs...........................................    15
        Dominguez, Michael L., and Patrick W. Dunne..............    57
        Pendleton, John, and Daniel Bertoni......................    15
        Schoomaker, Lieutenant General Eric......................    47
Letters, statements, etc., submitted for the record by:
    Dominguez, Michael L., Principal Deputy Under Secretary of 
      Defense, Personnel and Readiness, U.S. Department of 
      Defense, and Patrick W. Dunne, Rear Admiral, retired, 
      Assistant Secretary for Policy and Planning, U.S. 
      Department of Veterans Affairs, joint prepared statement of    60
    Pendleton, John, Acting Director, Health Care, U.S. 
      Government Accountability Office, and Daniel Bertoni, 
      Director, Education, Workforce, and Income Security, U.S. 
      Government Accountability Office, joint prepared statement 
      of.........................................................    19
    Schoomaker, Lieutenant General Eric, Surgeon General/
      Commander U.S. Army Medical Command, , prepared statement 
      of.........................................................    50
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    11
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5


  ONE YEAR AFTER WALTER REED: AN INDEPENDENT ASSESSMENT OF THE CARE, 
        SUPPORT, AND DISABILITY EVALUATION FOR WOUNDED SOLDIERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2157, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, McCollum, Hodes, 
Shays, Platts, and McHenry.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Andy Wright, 
counsel; Grace Washbourne and Janice Spector, minority senior 
professional staff members; Nick Palarino, minority senior 
investigator and policy advisor; Benjamin Chance, minority 
clerk; and Mark Lavin, minority Army fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs will commence.
    This hearing is entitled, ``One Year After Walter Reed, An 
Independent Assessment of the Care, Support, and Disability 
Evaluation for Wounded Soldiers,'' because we always think of 
such great titles for our hearings.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, that is so ordered.
    And I also ask unanimous consent that the hearing record be 
kept open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    I want to thank all of you for being here today. About a 
year ago, as we all recall, we saw that shocking expose in the 
Washington Post that revealed appalling conditions and 
unacceptable treatment of soldiers and their families at Walter 
Reed, located just a few miles from here in Washington, DC.
    The stories about what those injured heroes endured after 
coming home from Iraq and Afghanistan obviously ignited a 
public outcry and brought to light hundreds of revelations of 
similar frustrations and disrespect faced by our injured 
soldiers and their families.
    This subcommittee chose to hold the very first oversight 
hearing that it had this session on that topic, and we chose to 
do so on the grounds of Walter Reed, itself, in full view of 
the soldiers recovering there.
    During the course of the year, we have had two other 
subcommittee hearings, one full committee hearing, and 
countless briefings and interviews, and during that time we 
have learned about a maze of complex bureaucracies and hurdles 
that face patients and their families.
    I want to thank all the people who are here today, as well 
as others, for assisting us with those hearings and briefings 
and the interviews that we have had. It has been enormously 
helpful, and I know it is sometimes difficult or burdensome on 
you, but the only way we can work together on this is if we 
have that sharing of information, and we appreciate your 
openness on that, as well as your understanding that the spirit 
of this entire oversight is a jointly shared goal that we have 
of improving how this system works.
    We have learned about the enormous challenges the soldiers 
face with traumatic brain injury and post-traumatic stress 
disorder. We have learned about an archaic, adversarial, and 
burdensome disability evaluation process. At least that is how 
many of the people going through it expressed their 
understanding to us.
    Since last February we have also had a host of 
congressional, White House, Army, Defense Department, Veterans 
Affairs, and independent commissions and investigations urging 
a variety of reforms. If past is prologue, none of the work by 
these groups will mean anything unless there is the political 
will and the resolve to fundamentally improve the system and to 
make difficult choices that are necessary to actually implement 
some of the most wide-ranging recommendations.
    Let me be the first to say that much has been done over the 
past year to improve the military health care system. I think 
the Government Accountability Office report is going to reflect 
that, as well, and the public should know that there was great 
energy and intensity put on this by the Army, in particular. 
The Army has increased staff, as one example, by nearly 75 
percent. I think that is commendable.
    But, unfortunately, I think we all recognize it is equally 
clear that we have a ways to go. So today we are going to hear 
from the top directors of the Government Accountability Office 
on their independent assessment of where things currently stand 
with respect to providing those warriors and their families the 
care and support they have earned and that they deserve.
    The spirit of the GAO's extensive and independent analysis, 
as well as this oversight more generally, is best captured, I 
hope, by General Schoomaker's testimony. I am going to quote 
out of that, General, if you will permit me. You note, ``We 
know that there are obstacles and bureaucracies that still must 
be overcome. We continue to face challenges that require blunt 
honesty, continuous self-assessment, [and] humility. . . .'' 
Certainly humility is one thing we have all learned from this 
process, but we are grateful that you have been gracious in 
continuing the self-assessment and the bluntness.
    What we are trying to do here today is provide that 
independent assessment and robust critique in the spirit of 
fairness and sustained and constructive oversight. I am a firm 
believer that sustained oversight can be a powerful tool to 
ensure that the needed reforms are actually implemented this 
time around and to meet the long-term needs of growing yet 
diverse populations of wounded soldiers who are likely going to 
be in the VA system for a good part of their remaining lives.
    In a few minutes the Government Accountability Office will 
fully lay out what they found, but I want to take just a few 
minutes to highlight some things.
    First, according to the GAO, achieving adequate staffing 
levels continues to pose difficulties, particularly for the so-
called PEBLOs, whose job it is to help soldiers navigate 
through the confusing disability evaluation process.
    Moreover, borrowing from other units to fill key positions 
and utilizing JAG officers rotating in and out from the Reserve 
component strike me as only temporary fixes. Our wounded 
soldiers need long-term, permanent solutions, and if any link 
in the support chain is weak, then the whole model cannot 
succeed. Once again, it is the wounded soldiers and their 
families who will suffer.
    Second, if there is ever a time when we are actually going 
to be able to fundamentally fix the overly complicated and 
adversarial disability evaluation system, it seems to be now. 
There have been complaints about the disability evaluation 
system for decades, but over that period of time we have not 
done enough. If we don't take advantage of this unique 
opportunity now to fundamentally fix the system, I am concerned 
that 5 years from now we will still be wringing our hands and 
saying we had an opportunity to act and did not.
    That is why the GAO's testimony about their concerns with 
respect to the joint Defense Department/Veterans Administration 
pilot program is so important. We need to make sure this pilot 
has been created, is being rolled out, and is being evaluated 
in absolutely the best manner.
    But the GAO today will share concerns, among others, about 
the lack of a control group and transparent criteria to assess 
the success of the pilot and to evaluate whether to expand it 
to other facilities.
    We will hear all these concerns expressed in greater detail 
in a few moments, and I hope our executive branch 
decisionmakers present today will take them seriously and view 
them as constructive. If the past is any indication, I am sure 
you will.
    Our goals are the same: we want to take care of our wounded 
soldiers. We want to give them and their families the utmost 
respect. We want to ensure that these heroes have the best 
quality of life possible for the rest of their lives.
    Just because the 1-year anniversary of Walter Reed stories 
is passing, it does not mean that we should take our eye off 
the ball. This subcommittee, for one, certainly will hold 
additional hearings as long as is necessary to continue to 
monitor this administrations' progress and subsequent 
administration's progress and continue to ask all the questions 
that need to be asked.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tierney. I yield now to the ranking member of the 
subcommittee, Congressman Shays, for his opening remarks.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, if I could, I would like to submit for the 
record the statement of the ranking Republican member of the 
full committee, Tom Davis.
    Mr. Tierney. Without objection, so ordered.
    Mr. Shays. Thank you, Mr. Tierney, for your unwavering 
commitment to this subcommittee's ongoing bipartisan inquiry 
into the administration of medical care for our injured men and 
women returning from war. I commend you for your continued 
commitment to holding hearings and keeping the light of 
oversight on the Federal departments and responsibility for the 
care of our military wounded.
    Hearings have taught us well the many challenges that face 
our wounded warriors under a system that was not planned to 
give them the support, service, and treatment they need and 
have earned, so here we are again today with the Departments of 
Defense and Veterans Affairs witnesses to take stock of what 
has been accomplished to date and what still remains to be 
done.
    Secretary Dominguez, Secretary Dunne, we look forward to 
hearing what the joint Department of Defense/Department of 
Veterans Affairs Senior Oversight Committee has accomplished 
since our hearing last September. We look forward to learning 
what you have done to carry out the recommendations contained 
in the President's Commission on Care for America's Returning 
Wounded Warriors, commonly known as the Dole-Shalala 
Commission.
    General Schoomaker, congratulations on your promotion to 
Surgeon General of the Army. On TV today I still said you were 
in charge of Walter Reed Hospital, but, at any rate, 
congratulations on being Surgeon General. Your help with 
individual soldiers that have come to this committee for 
assistance has made a difference. We hope you are able to carry 
this dedication to the individual when you implement the 
policies of the Army medical action plan throughout the Army 
bureaucracy.
    The true test of what we are trying to accomplish with 
sweeping process changes, new dedicated personnel and training, 
and new forms of evaluation and treatment is to better serve 
the individual wounded soldier. If we do not keep the 
individual in mind, I feel we will be here again still looking 
for solutions that work.
    A year ago, Walter Reed Army Medical Center became a symbol 
of dysfunction. Today we look for a detailed accounting of what 
has been done not only to correct the problems there, but at 
all medical treatment facilities. Are the new standards of care 
that have been put into place working? Has service to our 
wounded and their families improved in their eyes? We look for 
the Department of Army and the Department of Defense to tell us 
what system of oversight they have in place to monitor whether 
or not every facility and every soldier is able to partake of 
the new programs and services.
    Along with Mr. Davis, Mr. Tierney, and Mr. Waxman, I still 
hold deep reservations about whether or not the Department of 
Army, the Department of Defense, and the Department of Veterans 
Affairs initiatives and programs are mindful of the unique 
needs of the Reserve components. Two weeks ago, Veterans 
Affairs Secretary Peake told Congress that his Department had 
not done enough for the National Guard and Reserve in the area 
of mental health treatment. We look forward to hearing what the 
Department is going to do to change that.
    Although the rate of suicide among returning troops is no 
higher than other groups of that age, it is shocking to hear 
that the rate of suicide among returning Guard and Reserves is 
at a higher percentage than active duty soldiers, which make up 
a large number of those deployed.
    As for the Department of Defense and the Department of 
Army, I know congressional appropriations are being used to 
fund new personnel at medical treatment facilities, but, 
unfortunately, there is a lack of inclusion in funding for 
mental health directors and transition assistance advisors that 
serve the members of the National Guard when they return home.
    Now pre and 30, 60, and 90-day post-deployment mental 
health evaluations for the National Guard are only of value if 
there are trained and competent personnel available in their 
State administrative headquarters to help secure treatment and 
other benefits needed for recovery and transition into 
community and home life.
    Today we will hear recruiting and retaining health care 
personnel is problematic, but I am also concerned about whether 
all caregivers and administrators are receiving comprehensive 
training. The process, both old and new, is still vastly 
convoluted and lacks the connectivity that supports real 
patient service oriented change.
    We will also hear about an update on a new disability 
evaluation system pilot. Can we completely restructure the 
disability and compensation systems of the Army, Navy, Air 
Force, and Marine Corps, the Department of Defense, and the 
Department of Veterans Affairs to better serve our Nation's 
military heroes and veterans? And to what effect? Is joint 
medical evaluation system streamlining, or is it just creating 
a bigger bureaucracy between two departments? And which 
department will be responsible if something goes wrong? How 
successful have DOD and VA been in sharing essential data?
    The Government Accountability Office has reported that 
these departments have been working for almost 10 years to 
facilitate the exchange of information without success. What 
has been done in the last year that has been different from 
past attempts? As long as paper is still part of the process, 
errors and time lags will cause problems for the wounded and 
their families.
    Of all the Dole-Shalala Commission recommendations, this 
integration will require a greater deal of cooperation and 
continuous dedication of resources.
    We look forward to hearing from our Government 
Accountability Office witnesses on current Federal Governmental 
efforts to address how our wounded warriors are treated. The 
value of their independent assessment cannot be over-stated.
    The President wants the Dole-Shalala recommendations 
implemented within a year. I know this subcommittee is 
committed to ensuring the Federal Government properly cares for 
our wounded veterans and that this care stays a priority until 
every person treated can say, I answered my country's call, and 
when I was wounded my country answered my call for help.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tierney. Thank you, Mr. Shays.
    Now the subcommittee will receive testimony from the 
witnesses that are before us today.
    I want to begin by introducing our witnesses. First, we 
have two top directors from the Government Accountability 
Office, Mr. John Pendleton, who is the Acting Director of the 
Health Care Team, and Mr. Daniel Bertoni, who is the Director 
of the Education, Workforce, and Income Security Team.
    The subcommittee thanks you and everyone working on your 
staffs for the enormous lift that was done to get this work. We 
appreciate all the research and the conscientious work that 
went into it. It took a considerable amount of talent and 
travel and conversation with families and with injured 
soldiers, as well, so we really, truly appreciate that.
    We also welcome key officials from the Army, Defense 
Department, and Department of Veterans Affairs. Lieutenant 
General Eric V. Schoomaker, M.D., the Army Surgeon General and 
Commander of the U.S. Army Medical Command. General Schoomaker 
is accompanied today by Brigadier General Reuben Jones, the 
Adjutant General of the Army.
    Michael Dominguez is the Principal Deputy Under Secretary 
of Defense for Personnel and Readiness for the U.S. Department 
of Defense.
    And Rear Admiral Patrick Dunne, Retired, is the Assistant 
Secretary for Policy and Planning at the U.S. Department of 
Veterans Affairs.
    Your work and dedication on behalf of all of our men and 
women in uniform is greatly appreciated. I want to particularly 
thank General Schoomaker and Admiral Dunne for changing your 
plans to accommodate our hearing schedule today. I know it is 
inconvenient, but we greatly appreciate it.
    It is the policy of the subcommittee to swear in all of our 
witnesses before they testify, so I ask you to rise please and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative.
    I can tell you that all of your written statements in their 
entirety will be placed into the hearing record, so you needn't 
feel compelled to repeat them word-for-word. We do offer 5 
minutes for our witnesses oral statements.
    Mr. Pendleton and Mr. Bertoni, I know that you are going to 
be making a joint statement, so you may want to take some 
license with that and go a little bit over. And I understand 
there was some talk about a joint statement from some of the 
other witnesses, but now people are going to take their 
individual time, and we are pleased with that. We want to hear 
everything that you have to say.
    Mr. Pendleton, why don't we start with you and Mr. Bertoni, 
please.

  STATEMENTS OF JOHN PENDLETON, ACTING DIRECTOR, HEALTH CARE, 
 U.S. GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY DANIEL 
 BERTONI, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME SECURITY, 
U.S. GOVERNMENT ACCOUNTABILITY OFFICE; LIEUTENANT GENERAL ERIC 
    SCHOOMAKER, SURGEON GENERAL/COMMANDER U.S. ARMY MEDICAL 
    COMMAND, ACCOMPANIED BY BRIGADIER GENERAL REUBEN JONES, 
 ADJUTANT GENERAL OF THE ARMY; MICHAEL L. DOMINGUEZ, PRINCIPAL 
  DEPUTY UNDER SECRETARY OF DEFENSE, PERSONNEL AND READINESS, 
U.S. DEPARTMENT OF DEFENSE; AND PATRICK W. DUNNE, REAR ADMIRAL, 
  RETIRED, ASSISTANT SECRETARY FOR POLICY AND PLANNING, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

      JOINT STATEMENT OF JOHN PENDLETON AND DANIEL BERTONI

    Mr. Pendleton. Mr. Chairman, Mr. Shays, and members of the 
subcommittee, thank you for inviting us to testify before you 
today as you continue your oversight of efforts to improve care 
for service members who are hurt or fall ill while in service 
to our country. Our work has continued since our testimony this 
past September. That work is still ongoing, but we are pleased 
to provide you with some interim observations today.
    Our oral statement will be in two parts. First, I will take 
a moment to update you on the Army's efforts to improve warrior 
care. Then my colleague, Dan Bertoni, will describe our ongoing 
assessment of efforts to improve the disability evaluation 
processes at DOD and VA.
    We have submitted a combined written statement for the 
record.
    First, an update on the Army. Mr. Chairman, I am pleased to 
report to you that the Army has made progress in the 5-months 
since our September 2007 testimony. Challenges remain, but the 
trends are in the right direction.
    As the centerpiece of its medical action plan, the Army has 
established warrior transition units at more than 30 locations 
to help service members and their families through what is 
often an extraordinarily difficult time. When we testified in 
September, the Army had filled roughly half of the key 
positions authorized for those warrior transition units. The 
Army still needed many highly sought-after medical personnel 
like doctors and nurses, as well as enlisted leaders from an 
Army already stretched thin by operations in Iraq and 
Afghanistan.
    Early this year the Army declared that its warrior 
transition units had reached full operational capability. This 
meant that senior commanders reported that the units had 
sufficient personnel and other resources to perform the key 
tasks assigned to them.
    The Army's assessment is encouraging, but a closer look 
reveals some challenges.
    First, about a third of the locations still have staff 
shortfalls in the warrior transition units. Most are minor, 
only one or two staff needed at a location. But some are more 
significant.
    Also, to meet their growing needs in the short term, the 
Army is still relying on borrowed staff to fill the warrior 
transition units. About one in five staff are temporarily 
borrowed from other units today, and this proportion has 
changed little actually since we testified in September.
    Another challenge is the 2,500 injured or ill soldiers who 
are eligible for the warrior transition units but have not yet 
been assigned to one. This is a complicated and fluid calculus 
for the Army. Because these personnel are outside the warrior 
transition unit, they are not considered when the Army 
identifies its staffing shortfalls. Including them would 
magnify the staffing challenge, because at some locations these 
personnel represent 40 percent or more of the total warriors in 
transition there. This group is at risk of getting lost in the 
shuffle as they attempt to navigate a still confusing 
disability process, which Dan will discuss in a moment.
    Finally, Mr. Chairman, I had hoped to be able to report to 
you about outcomes; for example, whether all of these efforts 
have translated into more satisfied soldiers and families. 
Until the Army obtains more reliable information, however, it 
will be difficult to adequately gauge the overall progress of 
their efforts.
    Mr. Chairman, that concludes my statement. Thank you. I 
will turn it over to Dan.
    Mr. Tierney. Thank you, Mr. Pendleton.
    Mr. Bertoni.
    Mr. Bertoni. Mr. Chairman, members of the subcommittee, 
good afternoon. I am pleased to be here to discuss efforts to 
meet the critical needs of America's wounded warriors. 
Thousands of service members have been wounded in Iraq and 
Afghanistan, and many are now navigating the complex and 
confusing disability process. In September we testified that 
overhauling the disability evaluation system was key to the 
reintegration and productive capacity of service members with 
disabilities. My testimony today draws on our ongoing work for 
this subcommittee and focuses on two key areas: current efforts 
to improve the process, and challenges to further progress.
    In summary, DOD's and VA's disability programs have been 
plagued by longstanding problems. In following the unfortunate 
events at Walter Reed, the Army developed several near-term 
initiatives to increase supports for those in the disability 
system. To address underlying systemic issues, DOD and VA 
currently are piloting a joint disability evaluation system 
with an emphasis on re-engineering the process for the longer 
term.
    To alleviate current pressures, the Army has established an 
average case load target of 30 service members per Physical 
Evaluation Board Liaison [PEBLO], and increased hiring by 22 
percent. The Army has met its goal at 24 of 35 treatment 
facilities. The Army is also increasing the number of attorneys 
and paralegals to meet increasing service member demands, and 
has established and mostly met its goal of one Medical 
Evaluation Board physician for every 200 service members in the 
system.
    The Army also reports increasing education and outreach, 
revising the informational guidance and handbooks, and 
developing a Web-based tool for soldiers to track their claims.
    Despite these many efforts, real challenges remain, 
especially in regard to hiring staff to help service members 
navigate the disability process. While average PEBLO caseloads 
have improved, the Army has not met its goal of 30 service 
members per liaison. Eleven of thirty-five treatment facilities 
continue to face staffing shortages, and over half of all 
service members currently in the evaluation process are located 
at these same facilities.
    The Army has also noted that the current number of legal 
personnel are insufficient to provide support during both the 
physical evaluation and Medical Evaluation Boards.
    While the Army plans to hire additional legal staff, 
current Government hiring policies and Army rotation policies 
could impede its ability to maintain staff within in-depth 
knowledge of complex disability issues.
    Finally, despite having mostly met its goal for Medical 
Evaluation Board physicians, some physicians are having 
difficulty managing their workloads due to the increasing 
volume of cases with multiple injuries and complex conditions 
such as TBI and PTSD.
    Regarding the pilot, DOD and VA conducted a tabletop 
exercise using 33 previously decided service member cases to 
evaluate four potential options. In November 2007 the pilot, 
which includes a comprehensive medical exam and a single VA 
disability rating, was rolled out in three Washington area 
locations. DOD and VA selection approach followed a 
predetermined selection methodology, captured a broad range of 
metrics, and involved a number of expert stakeholders. While 
the exercise yielded sufficient information to select the pilot 
option, it required some tradeoffs in data collection and 
analysis that could have implications down the road.
    For example, the small, judgmental sample of cases selected 
was not statistically representative of each military service's 
workloads, and a larger, more representative sample could have 
yielded different outcomes.
    Further, a key selection variable, expected service member 
satisfaction, was based on input from pilot officials rather 
than input from service members, themselves.
    While the pilot is expected to last 1 year, officials may 
expand it to more sites outside the Washington area prior to 
that time. However, very few cases will have gone through the 
entire process at this and other critical junctures, and the 
agencies will have limited data to guide their interim 
decisions.
    Further, current evaluation plans lack key elements such as 
the criteria for determining how much improvement and 
timeliness or consistency would justify full expansion, a 
method for measuring the policy impact compared to the current 
process, and an approach for measuring service member 
satisfaction. All of these elements are critical to identifying 
problem areas or issues that could limit the effectiveness of 
any new system.
    Going forward, it is important that focused attention be 
placed on the challenges discussed today. For the Army, 
sustained attention to addressing key staffing and workload 
imbalances, and continued efforts to enhance the efficiency and 
transparency of the process is essential. For the pilot, more 
transparent articulation of the data that will be available at 
key junctures, and the criteria that will guide decisions on 
future expansion or modification is needed. Absent such an 
approach, the performance and credibility of any redesigned 
system could be in jeopardy.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions that you may have.
    Thank you.
    [The prepared joint statement of Mr. Pendleton and Mr. 
Bertoni follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Tierney. Thank you, Mr. Bertoni.
    General Schoomaker, would you care to make some remarks?
    General Schoomaker. Yes, sir.

        STATEMENT OF LIEUTENANT GENERAL ERIC SCHOOMAKER

    General Schoomaker. Chairman Tierney, Congressman Shays, 
distinguished members of the subcommittee, thank you for 
inviting me to discuss really a total transformation that the 
Army has undergone in the way that we care for soldiers and 
families. We are truly committed to getting this right and to 
providing a level of care and support to our warriors and 
families that is equal to the quality of their service.
    Accompanying me this afternoon is my colleague, the Army 
Adjutant General, Brigadier General Reuben Jones. As the 
Adjutant General, General Jones has oversight of the Army's 
Physical Evaluation Boards, the PEBs, and is actively involved 
with improvements in the disability evaluation system. He is 
here to answer any questions that you may have concerning the 
Army's role in streamlining the disability evaluation process.
    I appreciate the continuing efforts of the committee and of 
the Government Accountability Office to help our wounded, ill, 
and injured service members. Your attention to their problems 
and your insights and observations play an important role in 
our continuing progress.
    Mr. Bertoni and Mr. Pendleton work collaboratively and 
openly with our Army medical action planners to produce a good, 
independent assessment of our progress to date. Before we delve 
into the details of where we are today, I would like to 
emphasize the unprecedented nature of what the Army has 
accomplished over the last year.
    We now have over 2,400 soldier leaders assigned as cadre to 
35 warrior transition units that did not exist last February. 
These are 2,400 small unit leaders in jobs where last year at 
this time we had fewer than 400 cadre doing the work for almost 
an equivalent population of patients.
    The most significant feature of these warrior transition 
units is a triad that consists of a primary care physician, a 
nurse case manager, and the squad leader working together to 
attend to the needs of each individual and their family.
    In less than 1 year the Army has funded, staffed, and 
written doctrine to establish these new organizations. This is 
a truly amazing accomplishment. It is a true transformation in 
warrior care.
    Another improvement in the care of soldiers is that a year 
ago our wounded, ill, and injured believed that their 
complaints were falling on deaf ears within the Army.
    Now, with the assistance of this subcommittee--and I know, 
sir, that this was a specific interest that this subcommittee 
had--we have established a MEDCOM-wide ombudsman program with 
ombudsmen at installations across the Army, and we continue to 
hire more. In fact, my Command Sergeant Major, Althea Dixon, is 
not with me today only because she is addressing the newest 
crop of ombudsmen that have been hired and are being trained in 
San Antonio, Texas, many of whom are former NCOs who served in 
uniform and are experienced in the medical system.
    Every one of our treatment facilities knows who their 
ombudsman is and how to find him or her. Many are retired NCOs, 
as I mentioned, or officers that work outside the local chain 
of command, but they have direct access to the hospital 
commander, to the garrison commander, the senior mission 
commander on our installations, and they know how to get 
problems fixed.
    We have also established a 1-800 wounded soldier and family 
hotline. I believe your packets contain the card that we hand 
out generously. In fact, in meeting with the VA recently we 
showed them what we were doing, and they were so impressed that 
they have started a similar hotline of their own.
    This offers wounded, ill, and injured soldiers and families 
a way to share concerns on any aspect of their care or 
administrative support, and I emphasize that it can be any 
aspect, not just inpatient medical care or outpatient care, but 
housing, pay, accompaniment of the family member, whatever it 
might be. We respond to these inquiries within 24 hours. So far 
we have received in excess of 7,000 calls.
    As you may well know, despite these successes, there is 
much progress to be made. We are addressing concerns and 
providing treatment for those soldiers with concussive injuries 
and those with symptoms of post-traumatic stress.
    We understand that these are great concerns to the American 
public, as well as for our soldiers and their families. We 
recognize the importance of prevention, timely diagnosis and 
treatment of concussive injuries and post-traumatic stress, and 
we are aggressively executing programs designed to educate, to 
prevent, to screen, and to provide care for deployment-related 
stress and injuries.
    Congress jump-started us last year with supplemental 
funding for post-traumatic stress and traumatic brain injury 
research and care, and we are extremely grateful. We are 
putting them to good use.
    We must continue to look at the physical disability 
evaluation system and ways to make it less antagonistic, more 
understandable and equitable for soldiers and his or her 
family, and to make it more user friendly. I applaud the 
efforts to pursue changes in the disability evaluation system 
as aggressively as possible.
    The Army's unwavering commitment and a key element of our 
warrior ethos is never to leave a soldier behind on the 
battlefield or lost in the bureaucracy. We are doing a better 
job of honoring that commitment today than we were at this date 
last year.
    In February 2009 I want to report back to you with GAO at 
my side that we have achieved a similar level of progress as we 
have over the last year, because, sir, I strongly agree with 
your commitment to sustained oversight and continuous 
improvement.
    I am proud of Army medicine's efforts over the past 232 
years, and especially over the last 12 months, to care for the 
soldier and his or her family. I am convinced that, in 
coordination with the Department of Defense, the Department of 
Veterans Affairs, the Congress, we have turned the corner on 
this issue.
    Thank you for holding this hearing. Thank you for your 
continued support for our warriors for whom we are truly 
honored to serve.
    Thank you.
    [The prepared statement of General Schoomaker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Tierney. Thank you, General.
    General Jones, do you care to make any remarks?
    General Jones. No, sir.
    Mr. Tierney. OK. Mr. Dominguez, if you would.

  JOINT STATEMENT OF MICHAEL L. DOMINGUEZ AND PATRICK W. DUNNE

    Mr. Dominguez. Thank you, Mr. Chairman, Congressman Shays.
    I want to start off first by offering my condolences to you 
on the loss of your colleague, Congressman Tom Lantos. I was a 
graduate student in California when he was first elected to 
Congress, and I had the privilege of having Tom Lantos as my 
Congressman for a short while.
    I am privileged to be here with Admiral Dunne, the 
Assistant Secretary from Veterans Affairs, and our presence 
together and our joint testimony symbolizes the close working 
relationship that is now, I think, the single greatest 
achievement of the work over the last year at the major policy 
level within the Department. Our two departments are now welded 
together in a goal of delivering seamless support to service 
members as they transition into veteran status.
    I want to acknowledge General Schoomaker's presence here. 
While we have done a lot at the national policy level, the 
policy coordination level, the military services, symbolized 
here by these two gentlemen to my right, have really changed 
the situation on the ground through their aggressive work and 
enlightened leadership.
    I want to recognize our GAO colleagues. We have endeavored 
in our efforts from the first to be open. We have recognized we 
needed help in understanding the problem and in trying to 
devise solutions to that. That is where all those boards and 
commissions came from. We have received that help. We are 
thankful for it. We have acted on it. And extra eyes on this 
problem continue to be needed, so GAO's involvement and 
continued involvement is welcome.
    Admiral Dunne and I have addressed in our written testimony 
and we will cover today lots of specific initiatives that we 
put in place since last year, but allow me please in these 
comments to put those details in the context of some broad, 
sweeping changes.
    The first big change that I would like to call your 
attention to is this integration of DOD and VA into a single 
collaborative team of problem-solvers committed to delivering a 
seamless continuum of care. It wasn't that way when we started, 
but it is that way now, and I think that extends all the way 
down through our organizations and out into the field.
    The second major change I would like to highlight for you 
is this fundamental shift in our approach to care and 
management and support of armed forces member in long-term 
outpatient status. General Schoomaker made reference to that. 
That is a huge change. Outpatients are no longer a special 
project of a first sergeant, but now they are organized into 
units, into these warrior transition units, and their needs are 
addressed comprehensively and holistically. That is a big 
change in how we approach a problem.
    Third, there has been a huge shift in our approach to 
psychological health. There has been a recognition over this 
last year that psychological fitness is as important to a 
warrior's mission as is physical fitness, and staying 
psychologically fit is part of the warrior's job, and it is 
part of the commander's job to ensure the warrior remains fit. 
That premise is changing a lot of what we are doing and 
changing a lot of our approach to at mental health care in the 
Department of Defense, and that is a huge difference now.
    The fourth big change is recognizing the complexity of our 
processes and the sense of powerlessness people in the system 
can feel. We have placed a major emphasis on robust case 
management, customer care, and communication, and a robust, 
involved, ever-present military organization and chain of 
command is an essential piece of that. That, also, is a huge 
change.
    So these are big changes that now have us moving in the 
right direction. We have only just started work, turning our 
institution in that direction, and much remains to be done.
    The last big change we need, however, rests with the 
Congress, and that is achieving the clarity and simplicity in 
transition from service member to veteran requires a 
legislative rationalization of the roles of the two 
departments, DOD and DVA. I urge you to act on the President's 
proposal implementing the recommendations of the Dole-Shalala 
Commission in this regard.
    Thank you. I look forward to your questions, sir.
    Mr. Tierney. Thank you very much.
    Admiral, do you care to make some remarks, as well, please?
    Admiral Dunne. Mr. Chairman, members of the committee, I 
appreciate this opportunity to appear before you today. The 
Department of Veterans Affairs and Department of Defense 
continue to make excellent progress toward ensuring today's 
active duty service members and veterans receive the benefits, 
care, and services they have earned. I would also like to take 
this opportunity to thank the committee for its support for 
these efforts.
    I am especially pleased to be here today with Secretary 
Dominguez. Over the past year, Mike and I have had a unique 
opportunity to focus the attention of both departments on the 
needs of those we serve. We concentrated attention on the need 
for a seamless transition. I want to publicly thank him for his 
leadership. The partnership between the two organizations and 
the lines of communication are stronger than ever, as evidenced 
by the establishment and success of the Senior Oversight 
Committee.
    The Senior Oversight Committee has been in operation since 
May of last year. I note, however, that substantial high-level 
cooperative efforts in the areas of health care and benefits 
delivery predate the SOC. VA and DOD participated in the Joint 
Executive Council since February 2002. The JEC was designed to 
remove barriers and challenges faced by veterans and to support 
mutually beneficial opportunities. The JEC succeeded in the 
areas of benefits, health care, and joint ventures. The JEC was 
instrumental in launching the benefits delivery and discharge 
project, locating VBA counselors at military treatment 
facilities and establishing the traumatic service members group 
life insurance program. Through January 2008, TSGLI has paid 
out more than 4,100 claims to the tune of more than $254 
million.
    The JEC was also successful in employing the joint 
incentive fund. The fund supported 66 projects worth $160 
million. The JEC championed the VA/Navy collaboration on a 
North Chicago Joint Federal Health Care Facility, led the way 
in data sharing initiatives, and helped extend dental care 
benefits for the National Guard and Reserve members. In short, 
the JEC provided the starting point for the SOC. The SOC 
established the eight lines of action, which generally aligned 
with the issues needing resolution.
    The outstanding VA and DOD staff reviewed the 
recommendations presented by the numerous reports, 
investigations, and commissions to come up with a comprehensive 
plan of action, and the SOC is overseeing the efforts to 
implement that plan.
    For example, the case management decision resulted in VA 
standing up in office, hiring the first eight Federal recovery 
coordinators, and assigning them to military treatment 
facilities. The disability evaluation system pilot project is 
underway and using a single medical exam from which DOD can 
make fit/unfit to serve decisions, and VA may decide a claim 
for disability benefits if the individual is found unfit.
    But we realize we have more work to do. Data sharing, for 
example, has presented challenges as we seek to transfer 
patient data between our two systems. We are already 
implementing the requirements for the National Defense 
Authorization Act passed last session, but the issue of a new 
disability benefits system as proposed by the President remains 
an open item, and so VA contracted for two studies which will 
prepare us to move forward in this area. The studies are due 
for completion in August, and they will deal with transition 
payments, compensation, and quality of life issues as 
recommended by the Dole-Shalala Commission.
    The issue of rehabilitation medicine continues to evolve as 
we treat and evaluate the patients returning from the 
battlefield, entering acute care treatment, and initial 
rehabilitation in military treatment facilities before they 
transition to VA poly trauma centers and medical centers.
    Be assured the SOC is prepared to come together whenever 
necessary to make decisions and eliminate the obstacles faced 
by the dedicated VA and DOD staff which oversee the efforts on 
each line of action. VA continues its commitment to address any 
issues regarding cooperation between the two departments, and 
our efforts continue to enjoy support at the highest levels.
    This concludes my statement, and I look forward to your 
questions.
    [The prepared joint statement of Admiral Dominguez and 
Admiral Dunne follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Tierney. Thank you, Admiral.
    Ms. McCollum, you are recognized for 5 minutes to begin the 
questioning.
    Ms. McCollum. Thank you, Mr. Chair. I have two questions. I 
think one is quick, so I will go with that.
    Are you aware if we are beginning to test soldiers prior to 
being deployed for mental cognizant capability? In other words, 
I have been told that there are tests available where you can 
measure someone ahead of time and then find out later on if 
they have received traumatic brain injury. Are we doing that?
    Mr. Dominguez. Yes, Congresswoman, we have started that 
program in the Department of Defense to apply a cognitive 
baselining test to people deploying into the combat theater. It 
is not comprehensive yet. We are not doing it to everybody, but 
we are starting in both sessions and trying to get into the 
deployment cycle. I think the 101st Airborne Division, if I am 
right----
    Ms. McCollum. If you could get my office and the committee 
some more information on that, I would like it. And when you 
see everyone being deployed having that available, that would 
be great. Thank you.
    Mr. Dominguez. Happy to.
    Ms. McCollum. I would like to move on to another area. In 
the report--and thank you, gentlemen, for your report-on page 5 
under the disability evaluation system, item No. 1, your words, 
``GAO continues to have concerns in the hiring, training 
shortfalls,'' and goes on about lack of full utilization of 
judge advocates. Later on in the report you are talking about 
how the VA and the military still haven't come together on 
coming up with a seamless disability evaluation process, so I 
am concerned about that and I would like to hear from you in a 
minute what they need to do to correct this error, and if there 
is money in the President's budget to do whatever they need to 
do with computer software or hiring people or whatever is going 
to be required.
    The reason why I am concerned, General Schoomaker, is a 
couple of weeks ago, listening to National Public Radio, as I 
do every morning, there was a story of Fort Drum in New York, 
where the soldiers had been allegedly told by the VA that the 
VA could not advise them through disability evaluation systems. 
Now you have characterized that as a miscommunication now, but 
the soldiers really felt that they were getting the short end 
of the stick here. It is well established, VA ratings are often 
higher than the ones that are given by the military service, as 
was pointed out in testimony that we had here several months 
ago.
    But I want to walk through the facts, particularly in light 
of GAO's testimony today that 20 percent of the eligible 
service members at Fort Drum, approximately 105 wounded 
soldiers, are not in a warrior transition unit. You established 
an ad hoc group, Tiger Team, in 11 different hospitals and 
installations to cover the quality of rehabilitative care for 
our soldiers and the process of transitioning them from DOD to 
VA.
    As the NPR story relates, a Tiger Team went to Fort Drum, 
New York and found the veterans benefit advisors at the 
installation performing very well. In fact, they were 
performing so well that the Tiger Team even qualified it as 
almost a best practice. Yet, the message received at Fort Drum 
from the Tiger Team was the complete opposite. Though you told 
NPR there was no Army policy stating that a soldier could not 
receive outside advice in filing disability paperwork, that was 
exactly what your Tiger Team stated at Fort Drum. In fact, the 
VA official who attended the meeting wrote a memo the following 
day detailing the discussion under the heading ``Major 
discussion points by attendees.''
    The first point states that the colonel from the Tiger Team 
said, ``The Veterans Benefit Administration should discontinue 
counseling Medical Evaluation Board soldiers on the 
appropriateness of DOD, MEB/PEB ratings and findings. There is 
a conflict of interest. This activity should go on to any 
service organization, military Purple Heart at Fort Drum. They 
should assume the responsibility immediately.''
    So, General Schoomaker, I want to know how you could 
characterize this as a miscommunication. How is it that the 
Tiger Team could tell you that Fort Drum was doing a laudable 
job, but at the same time communicate to folks at Fort Drum, in 
what appears to be a fairly ambiguous manner, that their 
veterans benefit advisors should stop counseling injured 
soldiers on medical evaluation processes, especially after here 
in this committee there was an agreement that there was going 
to be work done to solve this problem, and it was going to seem 
seamless for the veteran?
    General Schoomaker. Well, ma'am, let me just real quickly 
review the facts in that case.
    The team that you are referring to went to 11 facilities, 
installations and hospitals, around March 2007, almost a year 
ago, at the very outset of our problem at Walter Reed.
    While we were standing up the Army medical action plan, the 
then Acting Surgeon General of the Army sent this team on the 
road. They were rapidly attempting to harvest best practices 
around the country.
    Fort Drum happened to be about the last place they went, 
and their account of their encounter and their investigation of 
what was going on at Fort Drum was exactly as you depicted. It 
was one of the best that they had seen. In fact, they were 
extraordinarily laudable about what they saw the counselors 
doing and tried to harvest as many of those practices as 
possible for use within the bigger system.
    When we heard about the story that NPR was going to float, 
I talked to, or my staff talked directly to people who were on 
the Army team, as well as senior supervisors within the VA at 
Buffalo who were at the meeting, and they recounted that no 
such discussion took place, and that it was a very, very 
collegial, very positive, very informative session in which 
there were no contentious issues, and nobody could recall this 
exchange taking place.
    In fact, I talked personally to the colonel that is quoted 
in the memo to ask her did anything to awry in this meeting, 
and it was absolutely the opposite.
    We tracked down as many members of the team as possible, 
and they all recounted exactly as I said.
    Unfortunately, the memorandum was not surfaced before the 
story. It was not shared with the team before they left Fort 
Drum or my office or my predecessor's office before. In fact, 
that memorandum only surfaced the day after the story was 
given, and after I had already made comments to the effect that 
we weren't entirely sure how this could have happened this way 
because everybody who was at the meeting recounted it was an 
extraordinarily positive exchange, and we encouraged them to do 
what the VBA counselors were doing on behalf of our soldiers.
    But as soon as that memorandum was surfaced, a memorandum 
written by a single attendee at that meeting, was never 
verified, never ratified by the other members who were in 
attendance there, I said, ``OK, clearly there has been a 
miscommunication here and misunderstanding between them. Let's 
prevent this from happening.''
    We got a hold of Secretary Peake almost immediately. 
Secretary Peake very graciously said, ``You know, there appears 
not to be the standardization and understanding around our 
counselors. Let's eliminate the possibility this could ever 
happen again.'' We immediately sat down and wrote a memorandum 
of----
    Ms. McCollum. General, my time has expired here.
    General Schoomaker. Yes, ma'am.
    Ms. McCollum. I am very confused.
    Mr. Tierney. I will give the gentlewoman more time if you 
want it.
    Ms. McCollum. Thank you. I am very confused on this, 
because there was actually a followup story the second day, or 
a couple days later, on NPR, and other people collaborated with 
what had happened. In fact, if I am remembering correctly, 
several of the men were actually kind of nervous about being 
identified even because they didn't want to move forward.
    I have a document--they tried to put it up on the screen, 
sir, and they were unable to do so. If you need to see this, we 
can make sure you can see it, as well.
    General Schoomaker. Is this the memorandum, ma'am?
    Ms. McCollum. Yes, it is.
    General Schoomaker. I have the memorandum.
    Ms. McCollum. Saturday, March 31, 2007, summary of Tiger 
Team visits on March 30, 2007, at 3:45 p.m. On the first page, 
Colonel Baker, item No. 1, ``Major discussion points by 
attendees.'' So the attendees would be the soldiers who were 
there, correct?
    General Schoomaker. No, ma'am. Not that I recall. I was not 
at the meeting, myself, but I understand----
    Ms. McCollum. OK. But Colonel Baker says, ``VA should 
discontinue counseling MED soldiers on the appropriateness of 
DOD EMB/PEB ratings and findings. There exists a conflict of 
interest. This activity should go to any service 
organization''--and it recognizes Military Order of the Purple 
Heart--``and Fort Drum should assume this responsibility 
immediately.''
    Now, that is in writing, and Colonel Baker says that major 
discussion points by attendees. That means people were 
discussing it, correct, if it is a discussion?
    General Schoomaker. Ma'am, I----
    Ms. McCollum. Are you saying Colonel Baker is totally 
inaccurate in what he said, that he has fabricated what is on 
here?
    General Schoomaker. Ma'am, what I am telling you is that 
Colonel Baker has said she never said that; that there were 
discussions in the room about whose lane should--you know, what 
work should be done by what counselors. The VBA counselors are 
very gifted in their knowledge of benefits for veterans within 
the Veterans Administration. They are not necessarily experts 
in the Medical Evaluation Board process. Those were all sorted 
out.
    I mean, what I am telling you, not having been in the room, 
one member who attended that meeting wrote those minutes, and I 
said to Congressman McHugh from upstate New York and I said at 
the NPR counsel I very much regret that the recorder of those 
minutes didn't share it with anybody else until a year later 
and a day after the story popped. Had they been shared, I think 
we would have been able to, one, corroborate it, and, two, 
validate it.
    Ms. McCollum. Mr. Chair, I am very disturbed by this. Since 
we are doing a lot of case work, way too much case work because 
too many people have been injured in the war in Iraq, and we 
thank them for their sacrifice, but I am hearing stories like 
this in my office of people afraid of challenging the system 
and that. I thought we had made it real clear after our last 
set of hearings here that we wanted this solution fixed and we 
wanted our veterans taken care of.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Ms. McCollum.
    Mr. Platts, you are recognized for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    I first want to thank each of you for your testimony here 
today, but especially for your efforts on behalf of our wounded 
personnel who have been courageous in their service, and to our 
two generals in uniform, as well as our civilian leaders in the 
departments, as well as the GAO trying to oversee all that we 
are doing.
    Clearly, as we found a year ago, we had some significant 
shortcomings in our system. I know each and every one of you 
have worked diligently to address some in the last 12 months 
and continue to do so. I want to express appreciation for your 
efforts.
    I regularly interact with families and wounded personnel 
from my District, and what I often most clearly hear is 
gratitude for the care they are receiving. The one thing that 
came through last year and has been addressed in some of the 
testimony here today I want to start with is that transition, 
because that seemed to be what I took away from the hearing at 
Walter Reed a year ago was the soldier coming right out of the 
battlefield and the inpatient care was tremendous and the 
medical care outstanding, but the transition to either 
outpatient or from military to VA, from DOD to VA is where we 
broke down, and a lot of this effort has been about trying to 
address that.
    Some of it is technology related, and I guess I would start 
with both of our Secretaries. That hand-off from DOD to VA, my 
understanding is that, while we are working on it, we still 
have some significant IT challenges of allowing it to be 
seamless so that the VA physicians get the up-to-date, 
reliable, accurate data. Can the two of you give me an update 
from your two different perspectives those handing off the 
material, and then VA with receiving it, where you see us today 
and where we are heading?
    Mr. Dominguez. Thank you, sir. I would be happy to start.
    I hope we don't have two different perspectives on this, 
because we have established a joint organization, you know, to 
drive this forward all the way across, not just in health care 
but in the administrative benefits, personnel information 
exchange, as well.
    The physicians on the medical side are making enormous 
progress--and there is a table included in our testimony that 
highlights that--on sharing information now and electronic 
media, so it describes the information that is already now 
being exchanged.
    More importantly, I think, in terms of the greater journey, 
we are committed to in our two Departments to building 
interoperable systems, so that the exchanges we have now with 
viewable information, so you can see the notes I took and what 
I wrote, but what we would like to do is move that into where 
it is computable data, inasmuch as we possibly can.
    The MDA put us on that journey or ratified that journey, 
and we are on it.
    Admiral Dunne.
    Admiral Dunne. Just to add on what Mike said, we are in 
accordance with NDAA, about to set up a program office which 
will look at how we put a program together to continue on what 
we are doing. We are on track for, by the end of this year, to 
have completely viewable health and personnel records that are 
needed to work with all our soldiers and veterans, and, as Mike 
said, we are working together. We don't have two different 
perspectives on it. We have two senior members of the SOC on 
each side, DOD and VA, whose job is to coordinate this efforts, 
to get our records first viewable and then interoperable.
    Mr. Platts. Now, in the hearing last year the one issue was 
just a legal barrier of whether you could share the records. It 
sounds like you have overcome that. There was a concern 
expressed last year whether HIPAA and some other laws allowed 
you to share, but it sounds like that is not an issue today?
    Admiral Dunne. I think from time to time someone will raise 
that flag and question whether HIPAA or some other rule is an 
impediment. Most times so far we have been able to answer those 
questions and move on.
    Mr. Platts. Because I am going to run out of time and I 
have several issues I want to cover, the next one deals with 
National Guard. With such a huge percentage of our troops being 
deployed being Guard or Reserves, and in Pennsylvania huge Army 
Guard, Air Guard units that have been deployed, and I have had 
the privilege of visiting them in theater and they are doing 
remarkable work, but when they come home, they don't come home 
to a typical base. They come home to communities across the 
State of Pennsylvania, across this country.
    I know there has been the effort with the transitional 
assistance advisors that has been stood up, and really from the 
Guard side, but one of the challenges is how we are funding it.
    I joined with the ranking member and the Chair of the 
subcommittee as well as the Chair and ranking member of the 
full committee earlier this week in a letter to Dr. Chu asking 
for DOD to look at dedicated funding for this transitional 
assistance. I know it is a letter we just sent out the 
beginning of this week. Is there any position you can share 
today of looking at this funding need, because from my 
understanding the TAA system is being critical to helping Guard 
who are coming back to their home communities with some 
significant needs. Has DOD taken a position thus far on that 
request?
    Mr. Dominguez. I would say, first, we are looking at this 
whole integration of reintegration for the Guard and Reserve. 
We set up a major task force under Assistant Secretary for 
Reserve Affairs Tom Hall to really take the Yellow Ribbon 
programs that Congress sponsored and that we were doing 
experiments in 15 States, and we are going to expand that to 
all 50 States now. So Tom Hall is leading that effort, working 
in close cooperation with Lieutenant General Steve Blum and the 
chiefs of the Reserve components.
    With regard to the funding, this is a tougher issue 
because, while there is some level of funding that should be in 
the baseline for ongoing, sustained family support programs for 
the Guard and Reserve--and there was before and maybe that 
needs to be increased--the major requirement, the major 
increase in requirement is really driven by the fact that we 
are taking National Guard brigades and deploying them into 
combat and then bringing them home. So that challenge, the way 
we are now structured in the way we do the budgeting really is 
supplemental funding issue.
    Now, I know that the appropriations committees are working 
with the administration and the Comptroller of the Department 
about moving away from supplementals and moving things into the 
base budget, so those things will get resolved, I think, in 
that discussion.
    What I am sharing with you is some initial reactions. In 
terms of the Department's or the administration's position on 
this, we don't have it. I will certainly ensure we take a quick 
look at it. I deeply appreciate the problem we have in funding 
this long-term, sustained care need with money that comes from 
month to month almost.
    Mr. Tierney. Thank you, Mr. Platts.
    Mr. Platts. If I could conclude real quick----
    Mr. Tierney. We have to, only because we have votes to go 
and I want to give everybody an opportunity to question.
    Mr. Platts. OK.
    Mr. Tierney. So 2 seconds or less.
    Mr. Platts. I just wanted to emphasize that, whether it be 
Guard, Reserve, or active duty, the bottom line is baseline 
supplemental is that we get it done, and I appreciate your 
efforts.
    Mr. Tierney. Thank you, Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Tierney. Mr. Hodes, you are recognized for 5 minutes.
    Mr. Hodes. Thank you, Mr. Tierney. Thank you very much. And 
I thank the panel for coming. I thank you all for your efforts 
to make things better.
    I would like to address, Mr. Dominguez, a question to you. 
I just came back from Iraq last week, where I heard with great 
concern of an uptick in the level of suicides and other mental 
health problems in theater. I note in your written testimony 
that the Army has incorporated neurocognitive assessments as a 
regular part of its soldier readiness processing in select 
locations, and select Air Force units are assessed in Kuwait 
before going into Iraq.
    How quickly do you plan to expand the program of 
neurocognitive assessments to everybody who is being deployed 
in theater? What do you know about the problem? My sense was 
that the extended deployments are taking an unimaginable toll 
on our brave troops, and we are seeing it in mental health 
problems and suicides in theater. I would like you to address 
that, if you would.
    Mr. Dominguez. Direct, I first want to separate the two 
issues. The neurocognitive assessments won't give us any 
insight into tendencies to suicide and depression and those 
kind of issues. The neurocognitive assessment is really about 
brain function. It is intended to give us a baseline for how 
you respond in these different parts of brain function so that 
if there is a concussive injury or something like that we have 
a baseline to measure it against and see if we can document 
that.
    Mr. Hodes. Let me just followup. Understood. Does that mean 
that you are also assessing pre-deployment mental health status 
in terms of depression, tendency to depression, and any non-
neurocognitive deficiencies which might lead to the magazine of 
health problems which we are now seeing.
    Mr. Dominguez. Sir, the Surgeon General of the Army is much 
more qualified, I think, to deal with that, because it is his 
troops implementing his procedures that deal with that.
    General Schoomaker. Yes, sir. I completely concur with what 
Mr. Dominguez said. The neurocognitive assessment that is being 
done that was referred to earlier by Congresswoman McCollum 
refers to baseline assessment for concussion.
    We have been and continue to assess symptoms of depression 
and the like prior to deployment and then immediately upon re-
deployment, and then 90 to 180 days after re-deployment in what 
is known as a post-deployment health reassessment [PDHRA]. That 
derives from studies that we have conducted now that symptoms 
of post-traumatic stress arise in the 90 to 180-day window 
after re-deployment, not immediately upon re-deployment.
    Mr. Hodes. I appreciate that. In Iraq I learned that there 
are approximately 100 mental health professionals dealing with 
our troops there spread throughout the country. What attention 
is being paid by you to the uptick in mental health problems 
and suicides in theater?
    General Schoomaker. Sir, we can take the question for the 
record, but I think the number is closer to 200 mental health 
providers in Iraq, but the concern about suicide has gotten a 
lot of attention from the theater command, as well as the Army 
as a whole, and we have sent assessment teams down-range to 
look at root causes for the problem and continue to track 
suicide risks as they return from theater. The Army, with the 
lead by the Army G-1, Chief of Personnel for the Army, and with 
me in support, and our Chief of Chaplains and others are 
looking at a comprehensive suicide prevention program and are 
dealing with or advising our leadership as we speak about what 
we will do about this suicide risk.
    Mr. Hodes. How soon do you plan to deploy the suicide 
prevention program? And do you have any conclusions yet about 
why we are seeing this sharp uptick of suicide rate in theater?
    General Schoomaker. Sir, I am not qualified to talk about 
the in-theater suicide risk right now, nor how quickly. 
Clearly, the Army has had an ongoing and continues to have an 
ongoing suicide prevention program and has for many, many 
years. It has been very successful. We see the trends that you 
described. It has alerted us to the issue and we are taking a 
very fundamental root cause and comprehensive approach to this, 
using a public health model to see if we can turn the tide.
    Mr. Tierney. Mr. Hodes, thank you very much.
    Mr. Hodes. Thank you, Mr. Chairman.
    Mr. Tierney. Gentlemen, let's see if we can get through 
this so we don't have to bring you back after the votes. I have 
essentially three categories here that I want to cover. The 
rest of it I think we have in the written documentation that 
you have been kind enough to provide.
    The first has to do with personnel. What I would like to do 
is ask a question about a particular nature of personnel and 
then get the response from whoever feels qualified to answer, 
then reaction from Government Accountability Office and what 
you might add as a recommendation to how the situation gets 
addressed.
    Legal staff--we have a problem there. The process is slow, 
according to the reports on that, very difficult to try and get 
it through so that we can hire people up in time. What are we 
doing about it and what does Government Accountability Office 
recommend we do about it?
    General Jones. Sir, let me take the legal question. First 
of all, each soldier has access to counsel.
    Mr. Tierney. I am going to say yes, we know, because we 
read the reports. Just what are we doing about it and go. 
Otherwise, we are going to have to have you back.
    General Jones. Bottom line, sir, we have 57 members that 
the Army is planning to distribute to the field.
    Mr. Tierney. Right. And do you have them all hired up and 
ready to go, because the information reports that we are 
falling short on the numbers, and one of the problems was that 
the process was so formal and so slow that you were having 
difficulty.
    General Jones. No, sir. The plan has not been approved, but 
I was informed yesterday that it is at the Army level for 
approval.
    Mr. Tierney. Is that a satisfactory response from GAO's 
point of view?
    Mr. Bertoni. I would acknowledge that is the condition. I 
guess I don't know, sitting here, exactly what the fix is, but 
I would acknowledge that, of the 57 that are needed, I know 
there has been recent approval for 30 more. Half of those are 
civilian sector; the other half are military sector. On the 
civilian side I think we point to just the general Federal 
hiring policies for bringing in civilian sector employees. 
There may be some room there to look at those and see if there 
is some way to get some dispensation within those guidelines to 
fast-track the civilian sector.
    On the military side, the biggest concern we have is that 
the Army's own policies of rotation is 12 to 18 months. 
Disability is very complex. It takes a long time to sort of 
overcome their learning curve. You could get an attorney in 
place who has been there for 12 to 18 months, very good, very 
adept at the issues, and they're gone. So, again, that is 
within the Army's control. I know there are needs all over the 
organization, but to the extent that they are losing brain 
power and disability expertise, that is something that they 
should look at.
    Mr. Tierney. General, could you address those and get back 
to us in writing as to what you think ought to be done with 
those?
    General Schoomaker. Yes, sir.
    Mr. Tierney. I think they are both valid points, and I 
would like to hear what you recommend as to how we are going to 
address each of those and how quickly it can be done.
    General Schoomaker. Yes, sir.
    Mr. Tierney. Thank you.
    In terms of most case managers, it seems to be going as 
well as any of the positions on that, but we have a problem 
with doctors with a current ratio of 200 to 1. There were some 
comments from the doctors that they were overwhelmed because of 
the complexity of the issues they were dealing with, as well as 
the volume when surgeries occurred, and a recommendation from 
some of them that the number be reduced to 100 patients per 
doctor. How realistic is that, General? Are we moving in that 
direction, or can we not move in that direction? What is GAO's 
response to that?
    General Schoomaker. Sir, I would have to say that the ratio 
of 1 to 200 was taken as a very, very conservative, that is 
protective kind of ratio. I mean, our normal primary care 
provider ratios are in the range of 1 to 1,000 or 1 to 1,500, 
so we felt, in setting the goal at 1 to 200, that was very 
generous. I think we need to go back and look at that, based 
upon what we heard from the GAO.
    Mr. Tierney. Thank you.
    And, gentlemen with the GAO, is that just your repetition 
of complaints that you heard, or was that an in-depth analysis 
of GAO agreeing with the complaint?
    Mr. Bertoni. I would say the noise we heard out there, I 
wouldn't say it is projectable to the force, as a whole. What 
we are trying to bring to the table is that, when we went to 
these various facilities, there were concerns about that ratio. 
Most of the time, that concern was based on when there were 
surges, particular units coming in during a surge of activity 
or individuals coming in to the process.
    One of the things I do know that the military is doing is 
putting together these traveling med units where they can go 
ahead and deal with these surges. Perhaps that is one way to 
just expand these units and, at least for a short time, stop-
gap measure, to alleviate the pressure. But, I think, certainly 
looking at that ratio, I don't know what it is, but there is 
some concern out there at times, and it behooves the military 
to look at it.
    Mr. Tierney. Thank you. General, we appreciate your 
willingness to take a look at that. Next time we get together 
maybe we will have a response of what you found out on that.
    The evaluation board liaisons are having some difficulty 
there. The goal has yet to be met. Are we on track to meet that 
any time soon, or is there a particular issue?
    General Schoomaker. Sir, I think the shortages were 
accurately reported and portrayed by the GAO. We have hiring 
actions out on all of them. Our populations of WTUs, as the GAO 
report describes, and as you have seen over the last year, we 
have continued to grow, to move the population into the WTU in 
a very, very deliberate and rational fashion. In fact, I think 
your packets contain the decision matrix we used to decide 
whether a soldier should remain out in a unit and not a part of 
the WTU or moved over.
    As the unit gets larger, then we add additional PEBLOs, but 
I think GAO captured it. These are tough hiring actions, and 
the training is difficult.
    Mr. Tierney. Just briefly, the apparent issue of getting 
eligible service members into the transition units, what are we 
doing about that? Do you agree with GAO's assessment on that? 
And if so, what are we going to do?
    General Schoomaker. I think we have been very responsible 
about this, to be candid with you. Let me just go back and put 
it into context, the fact that the Army and the services have 
always had soldiers with a variety of injuries and illnesses, 
and I need to emphasize at this point what the Secretary said 
earlier, that these are wounded, ill, and injured soldiers. 
These are not just all combat wounds. In fact, the majority of 
our soldiers, I would say, across the WTUs, are not as a 
consequence of wounds in combat. They are illnesses and 
injuries on training ranges and motor vehicle accidents, 
cancers, heart disease--all the things that we are prone to.
    The Army has always had soldiers distributed out through 
its companies, platoons, battalions who are in a range of 
recovery and treatment, and what we have done is to 
systematically move them in in accordance with whether they are 
going to be in it a long time, whether it doesn't look like 
they are going to get back immediately to that unit, whether 
that unit is going to deploy or not deploy. We don't want to 
leave a deploying unit with a large number of these soldiers.
    We have done it very systematically. Those that have 
remained out there I think, if you look at our decision matrix, 
are generally soldiers who are not going to be in long-term 
recovery. They are not in any unit that is going to deploy. 
They are not at risk for alcohol problems or family violence or 
suicide, and so we have left them out there. Frankly, this is a 
decision made with the consent of the commander of the unit. 
They are very receptive to that.
    Mr. Tierney. Do you want to add anything to that, GAO, Mr. 
Pendleton?
    Mr. Pendleton. Yes, sir. The Army put some guidance out 
about this in December which said that this is envisioned to be 
the exception rather than the rule, that someone would stay 
outside their warrior transition unit. There are 40 percent or 
more folks that are outside at a couple locations.
    Mr. Tierney. Did you say 40 percent?
    Mr. Pendleton. Yes, which doesn't sound like the exception 
to me. However, I have to tell you this number is not going to 
be zero. I mean, as General Schoomaker points out, some people 
probably ought to stay with their unit. They might have had a 
severely injured knee but they can do desk work, that kind of 
thing. But I think the Army needs to stay on this, sir.
    Mr. Tierney. OK. Maybe, General Schoomaker and Mr. 
Pendleton and Mr. Bertoni can work on that. Next time we come 
back we will see whether that 40 percent number is a bit high 
and what it is made of. We will go a little deeper into that.
    General Schoomaker. Yes, sir. I think, Mr. Pendleton, you 
depicted a regional thing. I think across the Army it is 
probably under 10 percent.
    Mr. Pendleton. I think it is 22.
    General Schoomaker. Never argue with an accountant.
    Mr. Pendleton. Right.
    Mr. Tierney. But I am interested in knowing whether the 22 
percent number is a good number for us or not. I would 
appreciate you digging down a little deeper on that at GAO and 
let's be certain that they are getting them over there if they 
need to be put over there on that.
    Just very quickly, on the squad leaders, are we having any 
difficulty getting people to go into that position, or do they 
feel they are on a promotion track and being respected in the 
military if they take that assignment?
    General Schoomaker. Yes, sir. The feedback we get back, the 
Army is very aggressive about getting very well-qualified NCOs. 
We now have a special pay for them. We have sent all the right 
signals, I think, that this is a career-enhancing and not a 
career-ending step for them.
    Mr. Tierney. OK. And last--my question may take a little 
longer than that--is the evaluation process, itself. We have 
the Medical Evaluation Board, we have the Physical Evaluation 
Board. I am always curious to know why they can't be done as 
one. I look at the pilot program, which still separates them 
out as separate entities on that and then moves on to the 
Veterans Administration evaluation from there.
    Would you quickly go through for me what it is you are 
doing in the pilot program exactly on that, why you chose that 
model as opposed to any of the others that you could have, why 
we only have one pilot program going, what happens if that 
doesn't pan out. Have we lost all that time? And why are we 
having a problem with the matrix or indices as a way of 
measuring that, no comparative group to work against, or 
whatever, and what about all the other services. Is it just the 
Army, or are we dealing with everybody, and where are we going 
on that?
    Mr. Dominguez. Sir, the pilot involves all the services.
    Mr. Tierney. Good.
    Mr. Dominguez. With regard to the input from the GAO on the 
evaluation criteria, I will be happy to look at that. We were 
going to spend a couple days here in mid-March diving through 
where they are in that pilot and what the next steps might be, 
so we will put that on the table to wrestle through.
    I would also ask the Director of Program Analysis and 
Evaluation to give me his own look at how our experiment is 
constructed to see whether it is adequate to the decision.
    The key elements of the pilot are that we do in the Federal 
Government one comprehensive medical examination, one 
disability rating from the VA. In both of those cases they are 
VA provided to VA standards. We do enhanced case management and 
communication on steroids, so a lot of----
    Mr. Tierney. That is not a good word for this committee.
    Mr. Dominguez. Sorry. So there is an enhanced case 
management aspect of it.
    There is an early engagement of the VA in the case which 
helps them reach early conclusions and rapid delivery of 
benefits, so those are the aspects of the pilot.
    We didn't do the MEB and PEB and try and combine them, 
because they are, in our view, two separate processes, and they 
are different parts of this winnowing process.
    Many people are referred to a MEB that are not referred to 
a Physical Evaluation Board, so the physicians look at them and 
say, ``Yes, you are going to be good to go. Go back to work.''
    Mr. Tierney. The definition people keep giving me on these 
is that the Medical Evaluation Board evaluates in order to 
identify a medical condition that may render a service member 
unfit, and then the Physical Evaluation Board determines if the 
member is fit or unfit. It seems to me there is not a lot of 
leap between one and the other one.
    Mr. Dominguez. Well, there is. Maybe General Jones can add 
on this. But the Physical Evaluation Board is where you get in 
commanders in the personnel community, and this is where you 
look. This is the people who make judgments about whether we 
can find you a place in our service to continue to serve, in 
spite of the fact that you are not able to meet the demands of 
your grade and MOS. So there are lots of those calls. Eighty of 
800 amputees have been returned to service that way. That is 
not a physician's call; that is a commander and a personnel 
chief's call.
    Mr. Tierney. I understand. Thank you.
    The questions that you saw in the GAO report that were 
raised about having an example to compare against all of those, 
are you wiling to work with the GAO in trying to address those 
concerns?
    Mr. Dominguez. I am certainly going to address those 
concerns they raised. We will look at them. I will have to 
satisfy myself and my boss, our two bosses, about whether we 
need to take that extra diligence necessary for the kind of 
decision that we are approaching here.
    You know, one of the things to keep in mind is what we did 
so far was simple. We just took two steps out of the process 
that were redundant within your same Federal Government, and we 
were doing those two steps separately because we happened to be 
two separate Federal agencies. So just pulling that out, which 
is the core piece of the change in the process, seems to me to 
be relatively straightforward and unobjectionable. But I will 
look at what they have suggested and will evaluate it and----
    Mr. Tierney. The concern out here is that we are going to 
end up down the road at the end of the pilot program back at 
the beginning.
    Mr. Dominguez. Yes.
    Mr. Tierney. I think that would be very disconcerting to 
you and Members of Congress and particularly the individuals 
involved on that, so we may have some written questions. I know 
Mr. Shays is going to have some written questions and I may 
have some additional also in terms of why we are not running 
more than one pilot and why we are not doing some of those 
things with all of you gentlemen on that.
    Mr. Dominguez. Right.
    Mr. Tierney. I want to thank you for coming in here today, 
again, Admiral Dunne and General Schoomaker, for changing your 
schedules, all of you for the diligent work that you have done 
and the cooperative effort with looking at that and the 
willingness to sit here and respond to our questions. We are 
all trying to get on the same page with this. We will have 
additional hearings. Some of you will probably be participants 
in that, as well, and we look forward to it.
    We thank you all for your great work and service. Thank 
you.
    Meeting adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 <all>

</pre></body></html>
